      AUDIT OF
E-APPLICATION SYSTEM


      Report Number: 7-31 

 Date Issued: September 27, 2007 

             U.S. Small Business Administration
                                                             Memorandum
             Office of Inspector General


     To: 	   Calvin Jenkins                                                        Date:   September 27, 2007
             Deputy Administrator for Government Contracting
             and Business Development

  From: 	    Debra S. Ritt 

             Assistant Inspector General for Auditing 

             lSI original signed 

Subject: 	   Audit of E-Application System
             Report 7-31

             This report presents the results of our audit of the Small Business Administration's
             (SBA) E-Application system, an internet-based system that processes applications
             for the 8(a) and Small Disadvantaged Business (SDB) certification programs. The
             system, which was implemented in September 2004, is licensed to SBA and
             operated by the contractor, and interfaces with SBA's Electronic 8(a) Review
             System. I The goal of the E-Application system is to reduce the application
             processing time by allowing applicants to receive and submit 8(a) and SDB
             applications electronically, and by providing 8(a) program personnel with a tool to
             quickly evaluate and approve applications and identify those applications which
             require further review.

             The OIG conducted an audit of the E-Application system to determine whether:.
             (1) data stored in E-Application complies with applicable laws, rules and
             regulations governing security of government data and Personally Identifiable
             Information (PU); and (2) controls over data transfer between E-Application and
             SBA's Electronic 8(a) Review system are sufficient to ensure the complete and
             accurate transfer of information.

             To accomplish our audit objectives, we reviewed documentation and the vendor
             contract, interviewed program personnel, and analyzed data files. We evaluated

             I   SBA's Electronic 8(a) Review System temporarily replaced SBA's Servicing and Contracting
                 SystemlMinority Enterprise Development Central Office Repository (SACSIMEDCOR). Thjs temporary
                 system will be permanently replaced by a new Business Development Management Information System,
                 which is under development.


                                                           2

the extent to which E-Application was in compliance with security requirements
specified by the Federal Information Security Management Act (FISMA);2
Federal Information Processing Standards (FIPS) Publication 200, Minimum
Security Requirements for Federal Information and Information Systems; and
Special Publication 800-53, Recommended Security Controls for Federal
Information Systems, issued by the National Institute of Standards and Technology
(NIST). We conducted the audit between April and June 2007 in accordance with
Government Auditing Standards as prescribed by the Comptroller General of the
United States.

RESULTS
Our review determined that the system's security safeguards over sensitive
government data were inadequate and did not meet FISMA, FIPS or NIST
requirements. For example, SBA had not developed or implemented standard
security operating procedures for E-Application. Additionally, the contractor that
operates the system lacked data backup and recovery capability, leaving SBA data
vulnerable to loss or misuse.

System controls were also insufficient to ensure the complete and accurate transfer
of information from E-Application to SBA's Electronic 8(a) Review System. For
example, existing system interfaces did not have sufficient data validation and .
verification controls to ensure the integrity of data transferred from E-Application
to SBA's Electronic 8(a) Review System. These controls were not required in the
contract to build the E-Application system. As a result, SBA lacks assurance that
complete and accurate data is transferred from E-Application to its Electronic 8(a)
Review System.

E-applications Lacked Adequate Security Operating Procedures and
Backup Capability

FISMA and FIPS Publication 200 require formalized system security plans for .
Federal information systems, including contractor hosted systems. However,
reviews performed by SBA since 2004 have identified significant unresolved
security vulnerabilities in the E-Application system. For example, an SBA review
conducted after deployment of the E-Application system disclosed that the vendor
had not defined and implemented standard operating procedures to ensure security
of the system. SBA reported this condition as a vulnerability and required the
vendor to develop procedures to implement SBA's security policies by January 31,
2005. As of the date of this audit, security procedures had not been developed or
implemented, and SBA has not held the contractor accountable.


2   Public Law 107-347


                                         2

Further, in 2006, the vendor moved the hosting site for E-Application from an
approved service provider to an alternate site. After learning of the move, SBA
performed a site visit and identified the following unremediated data backup and
disaster recovery vulnerabilities, which placed E-Application data at risk of
misuse or loss:

   •   No documented plan to bring the system up in the event of a disaster;

   •   No contract agreement for a backup storage site; and

   •   No contract agreement for an alternate data processing site.

Based on these vulnerabilities, E-Application did not meet the security
requirements of FISMA, FIPS Publication 200, and NIST Special Publication 800­
53. These standards require that Federal information systems have a continuity of
operations plans and backup data storage and processing capabilities.

E-Application Lacked Controls to Ensure the Integrity of Data
Transferred

Office of Management and Budget Circular A-123, Management's Responsibility
for Internal Control, requires the establishment of controls to ensure that
transactions are properly authorized and processed accurately and that the data is
valid and complete. In addition, controls should be established at an application's
interfaces to verify inputs and outputs. Despite these requirements, system
controls were not in place to continuously validate the completeness and integrity
of data transferred between E-Application and SBA's Electronic 8(a) Review
System. Further, we compared data in E-Application with information that had
been transferred to SBA's Electronic 8(a) Review System and found that the two
systems did not always reconcile.

SBA's contract with the E-Application vendor did not require that controls be
implemented to ensure the completeness and integrity of data transfers from E­
Application to SBA's Electronic 8(a) Review System. This requirement was not
incorporated into the vendor contract because SBA originally intended to strictly
use E-Application as a data capture system for paperless 8(a) applications and did
not plan on transferring data in E-Application to other SBA systems. Without
such controls, SBA has no assurance that data transferred from E-Application to
SBA's Electronic 8(a) Review System is complete and accurate.

To address this issue, prior to our audit, SBA hired a contractor to perform a data
cleansing of applicant data in E-Application and SBA databases and to establish



                                         3

procedures to perform automated daily validation of new and modified data items.
However, the contractor was unable to complete this task because of incomplete
E-Application system documentation of data structures, and data mapping.

Without data validation and verification controls, SBA has reduced assurance that
complete 8(a) applicant data is transferred from E-Application to its Electronic
8(a) Review System.

RECOMMENDATIONS

We recommend that the Deputy Administrator for Government Contracting and
Business Development:

1. 	 Modify the existing contract with the vendor to require the development of
     security procedures to implement SBA's security policies, a disaster recovery
     plan, a backup data storage site, and an alternate data processing site.

2. 	 Establish appropriate controls to ensure data entered into E-Application is
     accurately transferred to the Electronic 8(a) Review System.

3. 	 Validate the accuracy of data already transferred from E-Application to the
     Electronic 8(a) Review System.

AGENCY COMMENTS

On September 4, 2007, we provided SBA with a draft of the report for comment.
On September 26, 2007, SBA provided its formal response, which is contained in
its entirety in Appendix 1. SBA agreed with our findings and recommendations
and stated that it will migrate the E-Application system from the vendor site to
OCIO premises within the next 60 to 90 days. This migration will place the E­
Application System in an environment that is compliant with security, data backup
and disaster recovery requirements.

SBA also stated that it will implement an enhanced version of E-Applications that
includes an annual review component and will retire the Electronic 8(a) Review
System. This will obviate the need for data transfers.

OFFICE OF INSPECTOR GENERAL RESPONSE

We believe the actions proposed by SBA on the OIG recommendations are
responsive. However, we believe the Agency should establish target dates for
completing final action on recommendations 2 and 3.


                                          4

ACTIONS REQUIRED

Because SBA provided no target dates for completing proposed actions for
recommendations 2 and 3 we are requesting that target dates be provided by
October 29,2007.

We appreciate the courtesies and cooperation of the Small Business
Administration Government Contracting and Business Development
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 205- [Exemption 2] or Jeffrey R. Brindle, the Program
Director, at (202) 205- [Exemption 2].




                                         5

                                                                                              Appendix I




             U.S. Small Busl..... Administration
                                                     Memorandum
             Office of Inspector General


     To: 	   Debra S. Ritt                                              Date:   September 26, 2007
             Assistant Inspector General for Auditing

  From: 	    Calvin Jenkins    [Ex emption 6] 

             Deputy, General C15ntTacting ~ 

             Business Development 


Subject: 	   Response to Audit ofE-applications System
             Project No. 7019

             The results of the subject audit pertain to the current system, which is hosted in an
             ofT-site facility by the vendor who originally developed the system. These results
             paint a picture of a system that displays serious deficiencies in terms of system
             security, data security, recovery and contingency planning and execution. We do
             not contest your assessment of these deficiencies. However, they will be rendered
             moot by our plan to migrate the system to the OCIO premises in the next sixty to
             ninety days.

             At that time, oeIO will take over operation of the system, and will assume
             responsibility for all aspects of system and data security, as well as recovery and
             contingency planning and execution. Once migrated in-house, the system will be
             subject to all OCIO-approved standards and procedures for the above (and all)
             aspects of system operation. The vendor will enjoy absolutely NO access to the
             production system after this migration. The vendor will convey program updates
             to the system via email to OeIO. The latter will then apply the updates to the
             production system, only after subjecting the new code in a separate staging
             environment to OeIO-approved rigorous testing and QA procedures.

             The audit also mentions that the data transfer between the E-Applications system
             and the Electronic 8(a) Review system suffers from the absence of adequate
             continuous data verification and validation controls that would otherwise ensure
                                                                             Appendix I




the accuracy, completeness and integrity of the transfer. This exposure will also
disappear with the execution of our plan, as it calls for the full development,
testing and implementation of the embryonic Annual Review functionality
currently dormant in the 8a SDB application, and the concomitant retirement of
the separate Oracle-based Electronic 8 (a) Review system. Correspondingly, when
the latter system is retired, the need for the data transfer will also disappear.

Thank you for the thorough and meticulous effort that your analysis reflects. It
has helped us identity and address key areas where the E-Applications system can
be dramatically improved. We look forward to working with you to ensure that
the system meets all applicable security standards in the future.




                                       2
